TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Significant Revenue Continues to
                          Be Lost Because of Unassessed
                             Failure to Pay Tax Penalties



                                          March 24, 2009

                              Reference Number: 2009-30-052




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               March 24, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Significant Revenue Continues to Be Lost
                               Because of Unassessed Failure to Pay Tax Penalties
                               (Audit # 200830010)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) implemented corrective actions necessary to ensure that interest was charged on the
 Failure to Pay (FTP) tax penalty. This audit was a followup review to our report Procedures
 Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment of Taxpayers and
 Hundreds of Millions of Dollars in Lost Revenue.1

 Impact on the Taxpayer
 Congress established the FTP penalty to encourage taxpayers to pay their Federal income taxes
 on time and authorized the IRS to charge this penalty on tax accounts when taxes are not paid
 when due. Interest should also be charged on the penalty until it has been paid in full. However,
 because of the procedures used by the IRS to administer the penalty, interest is being fully
 assessed on the penalty for only some accounts while on most accounts it is not assessed. As a
 result, hundreds of millions of dollars in revenue owed to the Federal Government is lost every
 year, and taxpayers are not treated equitably.




 1
     Reference Number 2005-30-052, dated March 2005.
                             Significant Revenue Continues to Be Lost Because
                                of Unassessed Failure to Pay Tax Penalties




Synopsis
In general, the IRS’ practice is to accrue FTP penalties but not assess2 them until all other
assessed liabilities (tax, penalties, and interest which have actually posted to the account) are
paid in full and there is a credit available in the taxpayer’s account. In other words, the computer
keeps track of how much penalty the taxpayer owes, but most of the penalty is not officially
assessed to the taxpayer’s account until there are funds in the account to pay all or part of the
accrued penalty. Even then, the IRS assesses only the portion of the accrued penalty that can be
paid with the credit available in the account, while the rest remains accrued but not assessed.
IRS computers are programmed to charge interest only on assessed FTP penalties, not on
accrued penalties. Therefore, by not assessing these penalties, the IRS is forgoing the associated
interest. In addition, the IRS is not administering the tax law equitably because it charges certain
taxpayers interest on these penalties. These taxpayers, some in hardship situations such as
victims of natural disasters or military personnel serving in combat zones, have accounts that
have to be administered by the IRS manually (rather than by computer). IRS personnel
periodically calculate and assess the penalties on these accounts because certain variables
associated with the accounts are not programmed into IRS computers. Because the manually
computed penalties are periodically assessed, interest is charged on the penalties on these
accounts.
In response to our prior report, the IRS agreed to take steps to assess the accrued FTP tax penalty
more frequently, which would enable it to assess interest on the penalty for all taxpayers. The
IRS is operating in line with an interpretation of the Internal Revenue Code that it can only
charge interest on the penalty if the taxpayer receives a notice informing him or her of the
specific amount of the penalty assessed. Because of this interpretation and the problems
associated with issuing new notices each time the penalty is assessed, the IRS decided to make a
computer programming change to have the accrued FTP penalties assessed on individual and
business accounts in conjunction with the ongoing issuance of annual balance-due reminder
notices.
Although the IRS had made programming changes to assess the accrued FTP penalties in
conjunction with the annual reminder notices, we found that 257 (92 percent) of 278 balance-due
accounts included in our samples still did not have the penalty accruals assessed. We estimate
the IRS is still forgoing more than $171 million in interest assessments annually. In addition,
some taxpayers are being treated inequitably because they are charged interest on their penalties.



2
 An amount is not considered assessed until it is officially recorded as a liability on a taxpayer’s account on the IRS
Master File. The Master File is the IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
                                                                                                                      2
                        Significant Revenue Continues to Be Lost Because
                           of Unassessed Failure to Pay Tax Penalties



In our previous report, we discussed differing legal interpretations regarding whether new
notices must be sent to taxpayers each time the FTP penalties are assessed to facilitate charging
interest on the penalties. Contrary to our recommendation, IRS management did not seek
clarifying legislation on this issue. They concluded no clarification or modification to an
existing statute could ever be implemented due to a perceived inability of its computer system to
assess the penalty accruals more than once a year. However, IRS programmers believe that,
absent the requirement to issue a notice each time, penalty accruals could be assessed as often as
quarterly without encountering any considerable programming problems.
Without an amendment or change to the Internal Revenue Code, the IRS’ ability to make regular
assessments, and thus charge interest on those assessments, will continue to be limited by the
resources available to issue more notices.

Recommendations
To ensure all taxpayers are treated equitably and all monies owed the Federal Government are
correctly assessed, we recommended the Deputy Commissioner for Services and Enforcement
develop and follow consistent procedures for assessing accrued FTP penalties on a regular basis
on all balance-due accounts where such an assessment is not prohibited by statute. We also
recommended the Commissioner, Small Business/Self-Employed Division, work with the
Assistant Secretary of the Treasury for Tax Policy to request clarifying legislation to address
whether or not separate notices must be issued to taxpayers each time penalties are assessed and
interest is charged on the penalties. If it is determined that notices are not needed each time the
penalties are assessed, assessment of these penalties should be made on a quarterly basis.

Response
IRS management partially agreed with both of our recommendations. They stated that in
response to our prior report, the IRS updated computer systems to include the accrued FTP
penalty on the annual notices issued for all accounts except those prohibited by statute. This
change, which was effective in 2005 for individual taxpayer accounts and in 2006 for business
taxpayer accounts, resulted in the issuance of annual reminder notices in weekly intervals
throughout the year. IRS management stated that our sampling methodology did not take into
account the staggered timing of the notices and the fact that many cases were statutorily barred
from notice and demand for payment. IRS management made no plans to address our second
recommendation other than to work closely with the Office of Chief Counsel to review the
options for addressing the issue and determine appropriate actions. No implementation date or
monitoring plan was given.
Management’s complete response to the draft report is included as Appendix V.


                                                                                                      3
                         Significant Revenue Continues to Be Lost Because
                            of Unassessed Failure to Pay Tax Penalties




Office of Audit Comment
We are concerned with IRS management’s analysis and its conclusions. Notwithstanding
management’s assertion to the contrary, our methodology took into consideration accounts
barred by statute from receiving notice and demand for payment and accounts that were no
longer in active collection status. Moreover, the lack of effective corrective action by
management allows for continued inconsistent treatment of taxpayers. As such, there will
continue to be significant disparities in the amount of interest charged on FTP penalties and a
revenue loss on accounts in which the accrued penalties are not regularly assessed.
In its response to the first recommendation, IRS management states that it updated its computer
systems to include the accrued FTP penalty on the annual notices issued for all accounts except
those prohibited by statute. However, this does not address whether the penalty was actually
assessed on the taxpayer accounts for these cases so that the interest required by law would begin
to accrue. As such, management’s response did not effectively address the recommendation.
With regard to our second recommendation, we are concerned with the lack of specific
corrective action, especially in light of the IRS’ previous inaction on this issue. We will provide
a copy of our report to the Assistant Secretary of the Treasury for Tax Policy for consideration of
a legislative proposal to clarify the law. If the law regarding this issue is clarified to state that the
original notice and demand issued to taxpayers at the time the penalty is first assessed suffices
for future assessments, the IRS should ensure that the FTP penalty is assessed regularly and
applicable interest is charged on all taxpayer accounts except those prohibited by statute. If the
law is clarified to state that a new notice must be issued each time the penalty is assessed, then
the IRS should address the selective and inconsistent manner in which the penalty is now being
assessed. In either case, clarification is needed and should result in further action by the IRS.
The IRS has stated that it remains committed to continuing to search for additional ways to
improve its ability to assess and recover the FTP penalties and interest. We plan to follow up on
this issue to assess the IRS’ actions. We also plan to communicate our concerns about these
issues to the Assistant Secretary of the Treasury for Management and Chief Financial Officer.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Michael E.
McKenney, Assistant Inspector General for Audit (Returns Processing and Account Services), at
202-622-5916.




                                                                                                       4
                                 Significant Revenue Continues to Be Lost Because
                                    of Unassessed Failure to Pay Tax Penalties




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Actions Taken by the Internal Revenue Service Had Minimal Impact
          on Interest Assessments ................................................................................Page 3
                    Recommendation 1:..........................................................Page 5

          Clarifying Legislation Was Never Requested by the Internal
          Revenue Service............................................................................................Page 7
                    Recommendation 2:..........................................................Page 8

          Taxpayers Are Now Being Informed That Interest Is Charged on
          Failure to Pay Penalties Until They Are Fully Paid......................................Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measure ................................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 16
         Significant Revenue Continues to Be Lost Because
            of Unassessed Failure to Pay Tax Penalties




                  Abbreviations

CY          Calendar Year
FTP         Failure to Pay
I.R.C.      Internal Revenue Code
IRS         Internal Revenue Service
TRCAT       Transaction Category
                             Significant Revenue Continues to Be Lost Because
                                of Unassessed Failure to Pay Tax Penalties




                                              Background

To encourage taxpayers to pay their Federal income taxes on time, Congress established the
Failure to Pay (FTP) penalty and authorized the Internal Revenue Service (IRS) to charge this
penalty on tax accounts when taxes are not paid when due. The penalty is different from most
other penalties because it continues to accrue (grow) over time while other penalties are usually
one-time assessments. The penalty generally accrues at a rate of one-half of 1 percent per month
on the unpaid tax and continues to accrue until the penalty reaches a maximum of 25 percent of
the total unpaid tax due. This penalty is charged only on the unpaid tax and not on unpaid
penalties and interest.
Most calculations and assessments for the FTP penalty are made by the IRS computer system.
The computer makes an initial assessment of the penalty to the taxpayer’s account on the IRS
Master File1 at the time the original tax liability is assessed. Subsequently, the penalty continues
to accrue each month but is usually not assessed2 to the taxpayer’s account until all other
assessed liabilities (tax, penalties, and interest which have actually posted to the account) are
paid in full and a credit is available in the taxpayer’s account. In other words, the computer
keeps track of how much penalty the taxpayer owes, but most of the penalty is not officially
assessed to the taxpayer’s account until there are funds in the account to pay all or part of the
accrued penalty. Even then, the IRS assesses only the portion of the accrued penalty that can be
paid with the credit available in the account, while the rest remains accrued but not assessed.
This is significant for two reasons. First, despite the fact that Internal Revenue Code (I.R.C.)
Section (§) 6601(e)(2)(A) requires the IRS to charge interest on FTP penalties (just as it does on
other unpaid taxes and penalties), IRS computers are programmed to charge interest only on
assessed penalties, not on accrued penalties. The IRS is operating in line with an interpretation
of the I.R.C. that it can only charge interest on the penalty if the taxpayer receives a notice
informing him or her of the specific amount of each penalty assessment. By not assessing these
penalties regularly, the IRS has failed to abide by this regulation and has forgone the interest
associated with the penalties accruing without a notice having been issued. Second, the IRS is
not administering the tax law equitably because it charges certain taxpayers interest on the
penalties. These taxpayers, some in hardship situations such as victims of natural disasters or
military personnel serving in combat zones, have accounts that have to be administered by the
IRS manually (rather than by computer). IRS personnel calculate and assess the penalties on
these accounts because certain variables associated with the accounts are not programmed into

1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  An amount is not considered assessed until it is officially recorded as a liability on a taxpayer’s account on the IRS
Master File.
                                                                                                                Page 1
                           Significant Revenue Continues to Be Lost Because
                              of Unassessed Failure to Pay Tax Penalties



IRS computers. Because the manually computed penalties are periodically assessed, interest is
charged on the penalties on these accounts.
We brought these concerns to the IRS’ attention in a previous report.3 In response to that report,
the IRS agreed to make programming changes that would cause accrued FTP penalties to be
assessed more frequently and ensure notices include the proper wording to inform taxpayers that
interest is being charged on the penalties until they are fully paid.
This followup review of the IRS’ corrective actions was performed during the period
November 2007 through July 2008. Our audit included a review of tax return information filed
nationwide, as well as discussions and interviews with personnel from the IRS’ Servicewide
Penalty and Interest offices, Small Business/Self-Employed Division. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
 Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment of Taxpayers and
Hundreds of Millions of Dollars in Lost Revenue (Reference Number 2005-30-052, dated March 2005).
                                                                                                         Page 2
                             Significant Revenue Continues to Be Lost Because
                                of Unassessed Failure to Pay Tax Penalties




                                       Results of Review

Actions Taken by the Internal Revenue Service Had Minimal Impact on
Interest Assessments
In response to our prior report, the IRS agreed to take steps to assess the accrued FTP penalty
more frequently, which would enable the IRS to assess interest on the penalty for all taxpayers
who owe it. The IRS is operating under the premise that it can only charge interest on the
penalty if the taxpayer receives a notice informing him or her of the specific amount of the
penalty assessed. Because of this, the IRS decided to make a computer programming change to
have the accrued penalties assessed on individual and business accounts in conjunction with the
ongoing issuance of annual balance-due reminder notices.
We reviewed and analyzed a statistically valid sample of 278 taxpayer accounts (139 individual
taxpayer accounts and 139 business taxpayer accounts)4 to determine whether the accrued FTP
penalty was being assessed so that interest could be charged on the penalty. From our sample of
individual taxpayer accounts, we found that only 5 (3.6 percent) had the penalty accruals
assessed. From our sample of business taxpayer accounts, we found that 16 (11.5 percent) had
the penalty accruals assessed. Overall, 257 (92 percent) of the 278 accounts we reviewed still
did not have the penalty accruals assessed.
Although the IRS had made programming changes to assess the accrued FTP penalties in
conjunction with the annual reminder notices, we found that 182 accounts in our sample never
received an annual reminder notice5 and, therefore, never had the accrued penalty assessed. For
the remaining 75 accounts, the programming simply did not work as expected. For example, the
programming changes did not properly address accounts residing on the IRS’ Automated
Collection System6 and accounts set up to make monthly installment payments. As a result, the
IRS’ corrective programming had no effect on these accounts.


4
  See Appendix I for details concerning sample information.
5
  The IRS’ Master File computers evaluate an account and determine if certain conditions exist in order to generate
the annual reminder notice. For example, the IRS assigns collection status codes to accounts to define where they
are in the collection process. In order to receive an annual reminder notice, an account must have been in the same
collection status for a specific amount of time. The computer analyzes an account a minimum of once per year at a
specific time of the year to determine if a notice should be issued. Also, certain accounts are prohibited by statute
from receiving notices from the IRS. These include those taxpayers identified by the IRS as deceased, bankrupt,
provided disaster relief, defunct, no requirement to file a tax return, or unable to be located.
6
  This system accepts balance-due cases requiring telephone contact for resolution. IRS employees use the system’s
case management abilities to contact taxpayers, review their case histories, issue liens or levies, and to issue
balance-due reminder notices.
                                                                                                             Page 3
                             Significant Revenue Continues to Be Lost Because
                                of Unassessed Failure to Pay Tax Penalties



The fact that the FTP penalties are still not being assessed on most taxpayer accounts creates the
following two problems.

Lost interest
The Federal Government continues to lose hundreds of millions of dollars in interest each year
because the FTP penalties are being accrued versus assessed. Based on information we obtained
from the IRS Transaction Category (TRCAT)7 files, more than $10 billion in accrued penalties
existed on taxpayer accounts at the end of Calendar Year (CY) 2007. The $10 billion figure was
relatively constant at the end of each quarter in CY 2007. If the IRS changed its present
procedures and assessed the accruals on a quarterly basis, forgone interest charges would be
substantially reduced. For example, if accruals had been assessed quarterly during CY 2007, we
estimate the IRS could have charged almost $800 million more in interest.
                           Table 1: Potential Interest Charges (CY 2007)
                                        Accrued FTP
                                       Tax Penalties at           Interest Rate for       Potential Interest
        Quarter Ending Date            Quarter’s End             Subsequent Quarter           Charges
              March 2007               $10,324,708,895             2% (4/07-6/07)            $206,494,178

               June 2007               $10,370,522,462             2% (7/07-9/07)            $207,410,449

            September 2007             $10,444,825,128             2% (10/07-12/07)          $208,896,503

            December 2007              $10,100,337,383              1.75% (1/08-3/08)        $176,755,904

                 Total                                                                       $799,557,034
      Source: IRS TRCAT files and IRS Interest Rate Tables.

It is unlikely that the IRS would be able to collect the entire $800 million. We analyzed our
statistical sample of 278 taxpayer accounts to determine how many taxpayer accounts were in an
active or inactive collection status.8 We found 196 of 278 that were currently in active collection
status where the IRS was performing actions to collect the balance due. Based on our analysis,


7
  IRS TRCAT files are created as part of the Accounts Receivable Dollar Inventory. These files are generated on a
monthly basis from both the Individual Master File and Business Master File. The Individual Master File is the IRS
database that maintains transactions or records of individual tax accounts. The Business Master File is the IRS
database that consists of Federal tax-related transactions and accounts for businesses. These include employment
taxes, income taxes on businesses, and excise taxes.
8
  We defined active collection status as those taxpayers in a current installment agreement, fully paid, or in a
collection status assigned by the IRS indicating current actions are being performed to obtain the balance due. We
defined inactive collection status as those taxpayers identified by the IRS with no requirement to file a tax return,
provided disaster relief, or currently not collectible accounts such as unable to be located, deceased, bankrupt,
defunct, or other.
                                                                                                               Page 4
                        Significant Revenue Continues to Be Lost Because
                           of Unassessed Failure to Pay Tax Penalties



we conservatively estimate that the IRS could potentially expect to collect over $171 million in
interest it would have charged on accrued penalties that would have been assessed during
CY 2007. Over 5 years, we estimate the IRS could collect over $855 million in interest (see
Appendix IV).

Inconsistent treatment of taxpayers
As mentioned earlier in this report, there are situations where penalties must be computed
manually by IRS employees. In these situations, an IRS employee enters a code into the
computer to “restrict” the computer from calculating the penalty amounts. For example,
qualifying taxpayers affected by natural disasters or military personnel serving in combat zones
receive an extension to file and pay their taxes, extending the FTP penalty start dates. Also,
taxpayers in bankruptcy status have the penalties suspended from computation.
Because the FTP penalties on these restricted accounts are manually assessed and are not
computed by the IRS computers, there are no accrued penalties on the accounts. The penalties
are periodically calculated and manually assessed, and interest is charged on the assessments.
This creates an inconsistency because these taxpayers are charged interest on the manually
assessed penalties while taxpayers with computer accrued penalties are not charged interest.
Based on information we obtained from the IRS TRCAT files, we identified a population of
546,724 taxpayer accounts that were restricted from having the computer calculate the penalties
as of the end of CY 2007. Not all of these accounts are being charged interest on the penalty
because it might have been determined on some of the accounts that the penalty may not be
applicable due to reasonable cause demonstrated by the taxpayer. However, for those restricted
accounts where the penalty has not been abated, interest is being charged on the assessed portion
of the penalties. If these same accounts were not restricted, IRS computers would have accrued,
but not assessed, the penalties and not charged interest on the penalties.

Recommendation
Recommendation 1: The Deputy Commissioner for Services and Enforcement should
develop and follow consistent procedures for assessing accrued FTP penalties on a regular basis
on all balance-due accounts where such an assessment is not prohibited by statute. If the IRS
decides to continue to associate this assessment with the issuance of an annual reminder notice,
programming changes should be made to ensure that these notices are issued on all accounts
except where prohibited by statute.
       Management’s Response: IRS management partially agreed with this
       recommendation. They stated that in response to our prior report, the IRS updated its
       computer systems to include the accrued FTP penalty on the annual notices issued for all
       accounts except those prohibited by statute. This change, which was effective in 2005 for
       individual taxpayer accounts and in 2006 for business taxpayer accounts, resulted in the
       issuance of annual reminder notices in weekly intervals throughout the year. IRS
                                                                                           Page 5
                Significant Revenue Continues to Be Lost Because
                   of Unassessed Failure to Pay Tax Penalties



management stated that our sampling methodology did not take into account the
staggered timing of the notices and the fact that many cases were statutorily barred from
notice and demand for payment. They reexamined our sample cases and concluded that,
at most, 25 (9 percent) out of the 278 modules should have received a notice but did not.
They are in the process of researching why the notice was not sent in these cases and will
develop a corrective action plan.
Office of Audit Comment: We do not believe that IRS management’s corrective
action is adequate and are concerned with management’s analysis and its conclusions.
IRS management states that it updated its computer systems to include the accrued FTP
penalty on the annual notices issued for all accounts except those prohibited by statute.
However, this did not address whether the penalty was actually assessed on the taxpayer
accounts for these cases so that the interest required by law would begin to accrue. As
such, management’s response did not effectively address the recommendation.
Our review focused on whether the accrued FTP penalties had been assessed to allow for
the accrual of interest. Notwithstanding management’s assertion to the contrary, our
methodology took into consideration accounts barred by statute from receiving notice and
demand for payment and accounts that were no longer in active collection status.
The IRS’ procedure of associating the assessment of the FTP penalty with the issuance of
an annual reminder notice is not effective. In its response, the IRS focuses on whether
taxpayers received annual reminder notices rather than on whether the penalty was
assessed on these accounts so that the interest required by law would begin to accrue. As
a result, its conclusions upon reexamination of the cases are flawed.
In response to our prior audit, the IRS made the decision to tie the assessment of the FTP
penalty to the annual reminder notice issued from the IRS’ Master File. The IRS did not
follow the recommendation that it seek clarification in the law regarding the need for
additional notices when assessing the penalty despite the fact that its own Counsel had
stated that the law regarding the requirement to issue an additional notice each time the
penalty was assessed could be considered ambiguous. The specific criteria the IRS uses
for issuing an annual reminder notice from its Master File have little to do with whether
or not assessment of the penalty is appropriate in a given case. For example, taxpayers
on installment agreement plans with the IRS do not receive annual reminder notices
generated from the IRS’ Master File, and the accrued penalty and associated interest is
not assessed on their accounts. However, the law does not exempt these taxpayers from
paying the same interest on the penalty as all other taxpayers.
The IRS puts forth inconsistent arguments in its response. For example, in discussions
with us, the IRS acknowledged that in its previous corrective action it had not taken into
consideration taxpayers receiving their annual reminder notices from the Automated
Collection System. Taxpayer accounts residing on this system do receive reminder

                                                                                    Page 6
                        Significant Revenue Continues to Be Lost Because
                           of Unassessed Failure to Pay Tax Penalties



       notices, but do not have the FTP penalty assessed. In its reexamination of our sample
       cases, the IRS included cases residing on the system as part of its 25 which should have
       had the penalty assessed. However, it excluded many more cases recently released from
       the Automated Collection System even though no penalty was assessed on these cases
       when they resided on that system. These cases should not have been excluded.
       Further, based on their own review of our sample cases, the IRS acknowledges other
       cases for which taxpayers who should have received annual reminder notices from the
       Master File (and had the FTP penalty assessed) did not. Yet their response shows all
       corrective actions completed.
       Moreover, taxpayers are being treated inconsistently. The IRS states there is some
       inequity between taxpayers because interest is assessed for different taxpayers at different
       times of the year, but the inequity does not disproportionately affect taxpayers in combat
       zones or disaster areas. However, this argument does not consider that its process creates
       a large inconsistency which results in hundreds of thousands of taxpayers whose accounts
       must be computed manually (such as taxpayers affected by natural disasters or military
       personnel serving in combat zones) paying interest on the penalty that many other
       taxpayers are not required to pay.
       Although there are obstacles associated with charging interest on these penalties, the law
       is clear when it says that interest should be charged. Selective enforcement of the tax law
       based on convenience should not be an option. The IRS should ensure that it charges
       interest on the penalty fairly to all taxpayers.

Clarifying Legislation Was Never Requested by the Internal Revenue
Service
In our previous report, we discussed the differing legal interpretations regarding whether new
notices must be sent to taxpayers each time the FTP penalties are assessed to facilitate charging
interest on the penalties. I.R.C. § 6601(e)(2)(A) states “interest shall be imposed” on FTP
penalties from the date of notice and demand to the date of payment.
There are two possible interpretations of the I.R.C. sections pertaining to whether interest might
be charged on the penalties for which taxpayers have not received additional and specific notices
and demand for payment. The first interpretation is the IRS’ current practice, which is that no
interest can be charged on FTP penalties until and unless notice and demand is sent on the
specific penalty amount. The IRS Office of Chief Counsel stated that this practice is based upon
a strict interpretation of the I.R.C. The other possible interpretation is that once a notice and
demand for the tax liability plus interest and penalty is originally sent, the taxpayer has been
notified that the penalty is running. Subsequent accruals are automatic pursuant to I.R.C. §§
6651(a)(2) and (a)(3). Therefore, no further notice and demand of such accruals should be
required to charge interest. The IRS Office of Chief Counsel stated that this interpretation

                                                                                            Page 7
                        Significant Revenue Continues to Be Lost Because
                           of Unassessed Failure to Pay Tax Penalties



appears logical and would follow the cases in which the courts have held that taxpayers are liable
for penalties that continue to accrue but were not assessed. However, the IRS Office of Chief
Counsel also stated that this interpretation would require a more expansive reading of the statute
and regulation and would be taxpayer unfavorable.
Based on the language of the statute and legislative history, we were unable to determine
definitively the intent of Congress regarding this issue. However, because of the unique nature
of the FTP penalty, in that it continues to accrue until the balance is paid, we believe the second
interpretation to be the most reasonable. Penalties, by their nature, are unfavorable to some
taxpayers, but we believe this interpretation would facilitate a more equitable treatment of
taxpayers overall (as discussed in the previous section of this report) and would be consistent
with the intent of the penalty.
To address this issue, we recommended in our previous report that the IRS work with the
Department of the Treasury Assistant Secretary for Tax Policy to request clarifying legislation
regarding the need for separate notices to be issued to taxpayers each time FTP penalties are
assessed and interest is charged on the penalties. In their response, the IRS disagreed that a
legislative change was needed. They raised concerns that any clarification or modification could
never be implemented due to significant systemic limitations in its Master File computers.
However, IRS programmers believe that, absent the requirement to issue a notice each time,
penalty accruals could be assessed as often as quarterly, without encountering any considerable
computer problems.
The Government Accountability Office’s Standards for Internal Control in the Federal
Government recommend that managers take prompt action to correct problems identified by
auditors. Specifically, Federal managers are to: 1) evaluate findings and recommendations
reported by auditors; 2) determine the actions to take in response to the findings and
recommendations; and 3) complete actions that correct the problem brought to their attention.
Without a change to the I.R.C. or Revenue Procedures, the IRS’ ability to make periodic
assessments, and thus charge interest on those assessments, will continue to be limited by the
resources available to issue more notices.

Recommendation
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, should
work with the Assistant Secretary of the Treasury for Tax Policy to request clarifying legislation
to address whether or not separate notices must be issued to taxpayers each time FTP penalties
are assessed and interest is charged on the penalties. If it is determined that notices are not
needed each time the penalties are assessed, assessment of the penalties should be made at least
on a quarterly basis.



                                                                                             Page 8
                        Significant Revenue Continues to Be Lost Because
                           of Unassessed Failure to Pay Tax Penalties



       Management’s Response: IRS management expressed no disagreement with this
       recommendation but made no plans to address it other than to work closely with the
       Office of Chief Counsel to review the options for addressing this issue and determine
       appropriate actions. No implementation date or monitoring plan was given.
       Office of Audit Comment: We are concerned with the lack of specific corrective
       action, especially in light of the IRS’ previous inaction on this issue. We will provide a
       copy of our report to the Assistant Secretary of the Treasury for Tax Policy for
       consideration of a legislative proposal to clarify the law. If the law regarding this issue is
       clarified to state that the original notice and demand issued to taxpayers at the time the
       penalty is first assessed suffices for future assessments, the IRS should ensure that the
       FTP penalty is assessed regularly and applicable interest is charged on all taxpayer
       accounts. If the law is clarified to state that a new notice must be issued each time the
       penalty is assessed, then the IRS should address the selective and inconsistent manner in
       which the penalty is now being assessed. In either case, clarification is needed and
       should result in further action by the IRS.

Taxpayers Are Now Being Informed That Interest Is Charged on
Failure to Pay Penalties Until They Are Fully Paid
In our prior report, we identified that stuffers [Information About Your Notice, Penalty and
Interest (Notice 746) and Interest and Penalty Information (Notice 433)] included with notices
did not inform the taxpayers that interest was being charged on FTP penalties. We
recommended that the IRS ensure that these stuffers include information informing taxpayers
that interest will be charged on the penalties until they are fully paid.
The IRS committed to and took action by revising and adding additional wording to the stuffers
included with taxpayer notices. These stuffers make it clear to taxpayers that interest is being
charged on any unpaid FTP penalties.




                                                                                              Page 9
                             Significant Revenue Continues to Be Lost Because
                                of Unassessed Failure to Pay Tax Penalties



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS implemented corrective
actions necessary to ensure that interest was charged on the FTP penalty. To accomplish this
objective, we:
I.       Obtained and reviewed a copy of the Joint Audit Management Enterprise System
         Corrective Action Form to determine the status of IRS corrective actions on our prior
         audit report.1
II.      Reviewed IRS corrective actions to determine if:
         A. Requested programming changes to have accrued FTP penalties assessed on
            Individual Master File and Business Master File accounts receiving notices.2
         B. Reviewed the applicable statutory provisions and IRS procedures for assessing
            interest on the FTP penalty and providing notices to taxpayers; discussed all available
            options, including a possible statutory amendment to the I.R.C.; and pursued a course
            of action that is in the best interest of tax administration.
         C. Requested clarifying legislation to change the I.R.C. stating that an original notice
            and demand, instead of a separate notice each time the FTP penalties are assessed,
            will suffice for putting taxpayers on notice for interest charges on future penalty
            assessments.
         D. Revised Information About Your Notice, Penalty and Interest (Notice 746) and
            Interest and Penalty Information (Notice 433), which are sent to taxpayers along with
            the FTP penalty assessment notices, to include information to inform taxpayers that
            interest is charged on assessed penalties until they are fully paid.
III.     Determined if interest was being assessed on taxpayer accounts with accrued FTP
         penalties according to programming changes as specified in IRS’ corrective actions.
         A. Used a computer program to identify individual taxpayer and business accounts with
            an accrued FTP penalty existing as of December 31, 2007. This information was
            obtained through analysis of IRS TRCAT files.

1
  Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment of Taxpayers and
Hundreds of Millions of Dollars in Lost Revenue (Reference Number 2005-30-052, dated March 2005).
2
  The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes.
                                                                                                             Page 10
                             Significant Revenue Continues to Be Lost Because
                                of Unassessed Failure to Pay Tax Penalties



         B. Validated, verified, and assessed the reliability of the computer-processed data
            received in Step III.A. by comparing the data from the computer request to
            information from the IRS’ Master File3 and found the data to be valid and reliable.
         C. From the computer extract, selected statistically valid samples4 of 139 individual
            taxpayer accounts from a population of 12,239,760 taxpayer accounts and
            139 business taxpayer accounts from a population of 3,389,381 taxpayer accounts
            containing accrued FTP penalties. In selecting our samples, we used a confidence
            level of 95 percent, a precision rate of ±5 percent, and an expected error rate of
            10 percent. We reviewed the 278 taxpayer accounts and determined whether interest
            was being assessed timely on the penalty.
IV.      Determined the revenues associated with assessing the FTP penalty on a quarterly basis
         rather than a yearly basis.
         A. Used a computer program to identify taxpayer accounts with an accrued FTP penalty
            existing between January 1, 2007, and December 31, 2007. This information was
            obtained through analysis of IRS TRCAT files. We determined the number of
            accounts and the amount of accrued penalty on the accounts for each quarter (3 month
            period) of 2007.
         B. Determined the amount of interest that could be assessed on the accounts if the FTP
            penalty was assessed on a quarterly basis rather than a yearly basis.
V.       Determined how interest was being charged on restricted FTP penalty accounts versus
         penalty accounts where interest was assessed by the computer.
         A. Used a computer program to identify taxpayer accounts with a restricted FTP penalty
            existing between January 1, 2007, and December 31, 2007. This information was
            obtained through analysis of IRS TRCAT files.




3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
4
  We selected statistical samples because we wanted to project our results over the entire population of accounts.
                                                                                                            Page 11
                      Significant Revenue Continues to Be Lost Because
                         of Unassessed Failure to Pay Tax Penalties



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Kyle D. Bambrough, Lead Auditor
W. George Burleigh, Senior Auditor




                                                                                    Page 12
                      Significant Revenue Continues to Be Lost Because
                         of Unassessed Failure to Pay Tax Penalties



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief Technology Officer OS:CTO
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Accounts Management, Customer Account Services, Wage and Investment Division
SE:W:CAS:AM
Director, Payment Compliance, Small Business/Self-Employed Division SE:S:C:CP:PC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                  Page 13
                             Significant Revenue Continues to Be Lost Because
                                of Unassessed Failure to Pay Tax Penalties



                                                                                                 Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $855,451,550 in interest charges on 13,054,132 accounts over
    a 5-year period (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained IRS TRCAT files for the quarter ending December 31, 2007. We identified
15,629,141 taxpayer accounts with accrued FTP penalties totaling $10,100,337,383. This
included 12,239,760 individual taxpayer accounts with $4,860,911,173 in accrued penalties and
3,389,381 business taxpayer accounts with $5,239,426,210 in accrued penalties. Because at least
some of these accounts might not be collectible, we reviewed a statistically valid sample of
278 taxpayer accounts (139 individual taxpayer accounts and 139 business taxpayer accounts).
Our sample size was determined based on a 95 percent confidence level, an expected error rate
of 10 percent, and a precision of ± 5 percent.
We analyzed the 278 accounts to determine those that were in an active or inactive collection
status.1 We found 93.5 percent (130 of 139) of the individual taxpayer accounts and 47.5 percent
(66 of 139) of the business taxpayer accounts were in an active collection status. By multiplying
12,239,760 by .935, we estimate the IRS could expect to collect additional assessments of the
FTP penalty and applicable interest on 11,444,176 individual taxpayer accounts. By multiplying
3,389,381 by .475, we estimate the IRS could expect to collect additional assessments of the
penalty and applicable interest on 1,609,956 business taxpayer accounts. Overall, we estimate
the IRS could expect to collect additional assessments of the penalty and applicable interest on
13,054,132 taxpayer accounts.
Accrued FTP penalty for the 130 active individual taxpayer accounts totaled $36,250, or an
average of $278.85. By multiplying $278.85 by 11,444,176, we estimate $3,191,208,478 of the
accrued penalties could be assessed and collected. Accrued penalty for the 66 active business

1
  We defined active collection status as those taxpayers in a current installment agreement, fully paid, or in a
collection status assigned by the IRS indicating current actions are being performed to obtain the balance due. We
defined inactive collection status as those taxpayers identified by the IRS as deceased, bankrupt, provided disaster
relief, defunct, no requirement to file a tax return, or unable to be located.
                                                                                                            Page 14
                       Significant Revenue Continues to Be Lost Because
                          of Unassessed Failure to Pay Tax Penalties



taxpayer accounts totaled, $30,368, or an average of $460.12. By multiplying $460.12 by
1,609,956, we estimate $740,772,955 of the accrued penalties could be assessed and collected.
Overall, we estimate the IRS could expect to collect additional assessments of the accrued
penalty of $3,931,981,433. Our precision for this estimate was ± $1,487,834,153
(± $1,049,159,995 for individual taxpayers and ± $438,674,158 for business taxpayers).
To be conservative, we used the smallest precision point of our estimate to obtain a reduced
figure of $2,444,147,280 ($3,931,981,433 minus $1,487,834,153). Multiplying the
$2,444,147,280 by the 7 percent annual interest rate applicable for these accounts equals
$171,090,310. This is the estimated interest amount the IRS would have charged on accrued
penalties that would have been assessed during CY 2007. This would equal $855,451,550 in
additional interest charges over a 5-year period.




                                                                                        Page 15
        Significant Revenue Continues to Be Lost Because
           of Unassessed Failure to Pay Tax Penalties



                                                   Appendix V

Management’s Response to the Draft Report




                                                           Page 16
Significant Revenue Continues to Be Lost Because
   of Unassessed Failure to Pay Tax Penalties




                                                   Page 17
Significant Revenue Continues to Be Lost Because
   of Unassessed Failure to Pay Tax Penalties




                                                   Page 18
